               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 14-01073-139




    Combined Assessment Program 

          Summary Report 


 Preventable Pulmonary Embolism at 

   Veterans Health Administration 

              Facilities 





May 12, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                                  Preventable Pulmonary Embolism at Veterans Health Administration Facilities



                                            Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................           i


Introduction ................................................................................................................   1

    Summary ................................................................................................................    1

    Background .............................................................................................................    1

    Scope and Methodology .........................................................................................             2


Inspection Results .....................................................................................................        4

   Issue 1: Potentially Preventable PE ........................................................................                 4

   Issue 2: Facility Care Reviews ................................................................................              4

   Conclusions ............................................................................................................     5


Appendixes
  A. Under Secretary for Health Comments ..............................................................                         6

  B. OIG Contact and Staff Acknowledgments .........................................................                            7

  C. Report Distribution.............................................................................................           8





VA OIG Office of Healthcare Inspections
                           Preventable Pulmonary Embolism at Veterans Health Administration Facilities


                                Executive Summary 

Introduction
The VA Office of Inspector General Office of Healthcare Inspections completed an
evaluation of preventable pulmonary embolism (PE) at Veterans Health
Administration (VHA) medical facilities. The purpose of the review was to evaluate the
care provided to patients treated at VHA facilities who developed potentially preventable
PE. This evaluation was also a follow-up on the Office of Inspector General’s report
Healthcare Inspection – Prevention of Venous Thromboembolism in VA Hospitals
(Report No. 06-02459-209, September 26, 2008).

We conducted this review at 29 VHA medical facilities during Combined Assessment
Program (CAP) reviews performed across the country from October 1, 2012, through
March 31, 2013.

Results
Of the 507 patients we identified with confirmed PE, 259 (51 percent) had at least 1 PE
risk factor. Of these 259 patients, 57 (22 percent) presented to a VHA emergency
department with PE symptoms prior to their PE diagnosis on a subsequent encounter,
and emergency department providers may not have considered the possibility of PE.
Prudent initial evaluation of patients who present to emergency departments with
symptoms compatible with PE may improve care.

Of the 259 patients with at least 1 PE risk factor, we identified 38 (15 percent) with
potentially preventable PE—34 patients with missed or delayed PE diagnoses and
8 patients with inadequate prophylaxis prior to their PE. Four of these patients had both
inadequate prophylaxis and a delayed or missed diagnosis. Expanding peer review to
incorporate potentially preventable cases, including cases with inadequate prophylaxis
for patients with risk factors without contraindication to anticoagulants and delayed or
missed diagnoses, may result in improved PE prevention.

We encouraged facility management to expand peer review and to monitor the rate of
preventable PE at their facilities. While we made several recommendations during
facility CAP reviews, we made no recommendations in this report.

Comments
The Under Secretary for Health concurred with the report. (See Appendix A, page 6, for
the comments.) No further action is required.




                                                             JOHN D. DAIGH, JR., M.D.
                                                            Assistant Inspector General for
                                                              Healthcare Inspections

VA OIG Office of Healthcare Inspections                                                              i
                             Preventable Pulmonary Embolism at Veterans Health Administration Facilities



                                           Introduction 

Summary
The VA Office of Inspector General (OIG) Office of Healthcare Inspections (OHI)
completed an evaluation of preventable pulmonary embolism (PE) at Veterans Health
Administration (VHA) medical facilities. The purpose of the review was to evaluate the
care provided to patients treated at VHA facilities who developed potentially preventable
PE. This evaluation was also a follow-up to the Office of Inspector General’s report
Healthcare Inspection – Prevention of Venous Thromboembolism in VA Hospitals
(Report No. 06-02459-209, September 26, 2008).

From October 1, 2012, to March 31, 2013, we evaluated 29 facilities during Combined
Assessment Program (CAP) reviews performed across the country. We encouraged
facility management to expand peer review to incorporate potentially preventable cases,
including cases with inadequate prophylaxis for patients with risk factors without
contraindication to anticoagulants and delayed or missed PE events. We also
encouraged management to monitor the rate of preventable PE at their facilities.

Background
In venous thromboembolism (VTE), blood clots form in deep veins of individuals who
have been immobile for long periods or have certain medical conditions. Pieces of
these clots can break off and travel to the lungs, a serious condition called PE. PE is
the most common potentially preventable cause of death in hospitals.1 Clinicians
prescribe blood thinners for VTE prophylaxis for patients with VTE risk factors; however,
these medications can cause bleeding that ranges from mild to severe. Another way to
prevent VTE is to apply mechanical devices that squeeze the legs to prevent clots from
forming. These devices are uncomfortable, can cause skin breakdown, and may result
in increased immobility. In 2011, the American College of Physicians recommended
that clinicians assess the risk for VTE and bleeding in medical patients before initiating
prophylaxis.2 The recommendations discourage the use of blood thinners unless the
risk for VTE is greater than the risk for bleeding and discourage the use of mechanical
devices for VTE prophylaxis.

In 2007, OHI conducted a review to evaluate the extent to which VHA clinicians
implemented evidence-based recommendations to prevent VTE in hospitalized patients.
We found that 63 percent of patients at risk for VTE received recommended
interventions. Among patients who had PE while hospitalized, 17 percent received no
prophylaxis before the event, and an additional 28 percent received suboptimal
treatment in the absence of contraindications to anticoagulation. We recommended that

1
  Goldhaber SZ. Rationale supporting an “opt-out” policy for pharmacological venous thromboembolism
prophylaxis in hospitalized medical patients. J Thromb Thrombolysis 2013;35:371–4.
2
  FA Lederle, et al., “Venous Thromboembolism Prophylaxis in Hospitalized Medical Patients and Those with
Stroke: a Background Review for and American College of Physicians Clinical Practice Guideline,” Annals of
Internal Medicine, Vol. 155, No. 9, November 1, 2011, pp. 602–630.


VA OIG Office of Healthcare Inspections                                                                      1
                                 Preventable Pulmonary Embolism at Veterans Health Administration Facilities


VHA develop and implement a plan to monitor rates of preventable VTE outcomes and
ensure that hospitalized patients at risk for VTE receive accepted preventive therapies.

In May 2009, the Joint Commission added 6 VTE measures to its performance
measurement program known as ORYX®. In fiscal year 2012, VHA management had
the option to voluntarily participate in the VTE measures.

Scope and Methodology
We performed this review in conjunction with 29 CAP reviews of VHA medical facilities
conducted from October 1, 2012, through March 31, 2013. The facilities we visited
were a stratified random sample of all VHA facilities and represented a mix of facility
size, affiliation, geographic location, and Veterans Integrated Service Networks. OIG
generated an individual CAP report for each facility. For this report, we summarized the
data collected from the individual facility CAP reviews to identify system-wide trends.
For each of the 29 facilities, we reviewed a sample of patient electronic health records
(EHRs). The patient sample within each facility was not a probability sample and was
not representative of the entire patient population for that facility. Therefore, the
summary results presented in this report are not generalizable to the entire VHA.

We reviewed performance measure data and facility policies/protocols related to VTE
prophylaxis. We reviewed the EHRs of 575 unique patients, including inpatients who
had a principal discharge diagnosis of PE and outpatients who had new prescriptions3
for anticoagulant medications during the timeframe January 1 to June 30, 2012, and an
outpatient encounter with a diagnosis of PE. Inspectors completed initial EHR reviews
and identified patients, based on defined criteria, for further OHI physician review. OHI
physicians reviewed patients’ care and noted those who may have had a potentially
preventable PE or who had care issues that warranted further discussions with facility
chiefs of staff and other managers and providers. While onsite, inspectors determined
whether management had previously initiated reviews of these patients’ care.

Inspectors reviewed EHRs to identify imaging reports from VHA or private sector
facilities confirming PE. These included reports of computerized topography (CT) scans
of the chest with or without angiography (test using dye and special x-rays to show clots
inside pulmonary arteries) and/or nuclear medicine ventilation-perfusion scans (tests to
measure breathing and circulation in all areas of the lungs). Inspectors noted the
confirmed diagnosis date, or in the absence of an imaging report, documentation
supporting the approximate diagnosis date.

Additionally, inspectors reviewed EHR documentation from 30 days prior to the
confirmed or estimated PE diagnosis date to identify potential PE risk factors, including:
    Any surgery
    Active cancer (not cancer in remission or non-melanoma skin cancer)
    Prolonged immobilization (such as lengthy air or car travel or bed rest greater
       than 72 hours prior to the confirmed or estimated PE date)

3
    Defined as prescribed during the review timeframe and not previously prescribed in the prior 6 months.


VA OIG Office of Healthcare Inspections                                                                      2
                           Preventable Pulmonary Embolism at Veterans Health Administration Facilities


      Past history of VTE, PE, or deep vein thrombosis
      Hormonal contraceptive use

Inspectors also assessed whether the patient had an emergency department visit for PE
symptoms, such as shortness of breath, chest pain, or leg swelling, within the 30 days
prior to the confirmed or estimated PE date.

For patients with documentation of at least 1 risk factor, inspectors determined whether
providers prescribed anticoagulant medication in the 72 hours prior to the confirmed or
estimated PE date. The anticoagulant medications considered included warfarin,
heparin, enoxaparin, dalteparin, and fondaparinux.

OHI physicians then reviewed the EHRs of selected patients. These included patients
with at least one risk factor who were not taking an anticoagulant medication prior to the
PE diagnosis and patients whose EHRs lacked evidence of PE by imaging report, had
ambiguous or missing imaging reports, or contained ambiguous documentation of
PE risk factors or evidence of other care concerns.

Inspectors and physicians conducted the reviews in accordance with Quality Standards
for Inspection and Evaluation published by the Council of the Inspectors General on
Integrity and Efficiency.




VA OIG Office of Healthcare Inspections                                                             3
                               Preventable Pulmonary Embolism at Veterans Health Administration Facilities



                                      Inspection Results 

Issue 1:           Potentially Preventable PE
PE Events Identified

We identified 507 patients with confirmed PE. Of these patients, the events for
334 (66 percent) were confirmed at VHA facilities—284 (85 percent) by CT scan of the
chest or thorax, 35 (10 percent) by nuclear medicine ventilation-perfusion scan,
9 (3 percent) by both CT scan and nuclear medicine imaging, and 6 (2 percent) by other
diagnostic methods. The remaining 173 patients (34 percent) had PE confirmed at
private sector facilities—120 (69 percent) by CT scan and 14 (8 percent) by nuclear
medicine ventilation-perfusion scan. The EHRs for 39 patients (23 percent) contained
inadequate documentation of imaging type.

Missed Opportunity for Prevention

Of the 507 patients with confirmed PE, inspectors identified 1 or more PE risk factors
present in the 30 days preceding the PE diagnoses for 259 patients (51 percent). Of
these patients, 57 (22 percent) had a VHA emergency department visit for
PE symptoms within 30 days prior to the confirmed or estimated PE diagnosis date. PE
risk factors identified included 85 active cancers, 69 prior histories of VTE, 67 prolonged
immobilizations, 58 surgeries, and 3 hormonal contraceptive use.

OHI physicians reviewed the EHRs of 259 patients with at least 1 PE risk factor for
preventable PE events and identified 39 cases (15 percent) for discussion with VHA
facility senior managers—38 with potentially preventable PE. These cases included
8 patients with inadequate prophylaxis in the 72 hours prior to the confirmed PE without
documented contraindications to anticoagulation and 34 patients who had at least
1 encounter with a VHA provider for PE symptoms in the 30 days preceding the PE
diagnosis. These patients’ PEs were either diagnosed at subsequent VA encounters or
at private sector facilities after the VHA encounters. Four of these patients had both
inadequate prophylaxis and delayed or missed diagnoses. In one additional case, the
patient did not have PE, but we identified other care concerns.

Issue 2:           Facility Care Reviews
Management-Initiated Reviews

When conducted systematically and credibly, protected peer review can result in both
immediate and long-term improvements in patient care by revealing areas for
improvement in the practice of one or multiple providers.4 We determined that
5 (13 percent) of the 38 patients with potentially preventable PE had previous
management-initiated care reviews.


4
    VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.


VA OIG Office of Healthcare Inspections                                                                 4
                           Preventable Pulmonary Embolism at Veterans Health Administration Facilities


OIG Recommended Reviews

OHI recommended that VHA conduct peer review for 28 patients with potentially
preventable PE. Facility management completed reviews of 27 patients. One manager
declined peer review as the patient received only non-VA care.

We encouraged facility management to expand protected peer review processes to
incorporate potentially preventable PE events. We also encouraged management to
monitor and track the rate of preventable PE at their facilities.

                                          Conclusions 

We found opportunities for improvement in the care of patients with at least one PE risk
factor. For those patients who presented to a VHA emergency department with
PE symptoms prior to their PE diagnosis on a subsequent encounter, VHA emergency
department providers may not have considered the possibility of PE for these at-risk
patients. Prudent evaluation of patients with PE risks who present to the emergency
department with PE symptoms may improve PE care. For patients with potentially
preventable PE, providers either missed or delayed diagnosing the PE and/or did not
prescribe adequate prophylaxis prior to the PE. We encouraged facility management to
expand protected peer review to incorporate potentially preventable cases, including
cases with inadequate prophylaxis for patients with risk factors without contraindication
to anticoagulants and delayed or missed PE events. We also encouraged management
to monitor the rate of preventable PE at their facilities. While we made several
recommendations during facility CAP reviews, we made no recommendations in this
report.




VA OIG Office of Healthcare Inspections                                                             5
                           Preventable Pulmonary Embolism at Veterans Health Administration Facilities
                                                                                        Appendix A
               Under Secretary for Health Comments


               Department of
               Veterans Affairs 	                                 Memorandum

           Date:       April 22, 2014

          From:        Under Secretary for Health (10)

       Subject:     	 OIG Draft Combined Assessment Program (CAP)
                      Summary Report – Preventable Pulmonary Embolism
                      at    Veterans    Health    Administration Facilities
                      (2014-01073-HI-0409) (7466141)

             To:       Assistant Inspector General for Healthcare Inspections (54)

       1. Thank you for the opportunity to review the draft CAP Summary
       Report, Preventable Pulmonary Embolism at Veterans Health
       Administration (VHA) Facilities. I have reviewed the draft report and agree
       with it as written.

       2. VHA appreciates the opportunity to focus on the topic of preventable
       pulmonary embolism, which can be a difficult disease to diagnose and
       manage. The Deputy Under Secretary for Health for Policy and Services
       will establish a workgroup of subject matter experts to review this topic
       in-depth and to consider options for preventing future inpatient pulmonary
       embolism.

       3. If you have any questions, please contact Karen M. Rasmussen, M.D.,
       Director, Management Review Service (10AR), at (202) 461-6643 or
       e-mail VHA10ARMRS2@va.gov.




       Attachment




VA OIG Office of Healthcare Inspections                                                             6
                           Preventable Pulmonary Embolism at Veterans Health Administration Facilities
                                                                                        Appendix B

                OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG at
                        (202) 461-4720.
Contributors            Jerome E. Herbers, MD, Project Coordinator
                        Monika Gottlieb, MD, Project Coordinator
                        Annette Acosta, MN, RN
                        Bruce Barnes
                        Debra Boyd-Seale, RN, PhD
                        Paula Chapman, CTRS
                        Jennifer Christensen, DPM
                        Marlene Demers, RN, MS
                        Dorothy Duncan, RN, MHA
                        David Griffith, RN, BS, CHCQM, FAIHQ
                        Gayle Karamanos, MS, PA-C
                        Claire McDonald, MPA
                        Karen McGoff-Yost, MSW, LCSW
                        Victor Rhee, MHS
                        Susan Tostenrude, MS
                        Cheryl Walker, ARNP, MBA
                        Julie Watrous, RN, MS
                        Katrina Young, RN, MSHL
Other                   Elizabeth Bullock
Contributors            Jeffrey Joppie, BS




VA OIG Office of Healthcare Inspections                                                             7
                           Preventable Pulmonary Embolism at Veterans Health Administration Facilities
                                                                                        Appendix C


                                 Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
Office of Quality, Safety and Value
National Center for Patient Safety
Office of the General Counsel
Office of the Medical Inspector
Veterans Integrated Service Network Directors (1–23)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                             8
